January 26, 2009

KATHLEEN AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

WALTER F. O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT: Audit Report – Retail Technology Strategy: Automated Postal Centers
         (Report Number DA-AR-09-004)

This report presents the results of our audit of the Postal Service’s Automated Postal
Centers (APCs) (Project Number 08YG029DA000). Our objectives were to identify the
benefits of deploying APCs to non-Postal Service locations and assess the Postal
Service’s plans for APC deployment to such locations. See Appendix A for additional
information about this audit.

Conclusion

The APC Decision Analysis Report (DAR) states that the Postal Service could deploy
APCs to retail space and other more convenient, less costly, non-Postal Service sites,
and that reduced window clerk workhours at post offices resulting from customers’ use
of APCs should produce savings. Despite these initial expectations, the Postal Service
has not reduced workhours as envisioned. APC program officials stated that the Postal
Service recently relocated underperforming APCs to more advantageous Postal Service
locations and they believe APC usage will increase. However, there is currently no
clear plan that includes deployment of APCs to non-Postal Service locations and capital
funding has not been approved for additional APCs.

While the U.S. Postal Service Office of Inspector General (OIG) recognizes the Postal
Service’s capital funding constraints, OIG blog results1 indicate a desire to have APCs
at non-Postal Service sites. The benefits of deploying or leasing APCs to more
convenient non-Postal Service locations include the potential to reduce window clerk
workhours, generate additional revenue, and enhance customer convenience. In
addition, benchmark results show other entities have successfully used self-service
kiosks to decrease costs and increase customer convenience. The Postal Service may
be foregoing opportunities to realize the full benefits of self-service technologies by not
fully incorporating self-service kiosks into the current retail technology strategy. See
Appendix B for our detailed analysis of this topic.
1
  The blog was initiated in September 2008 as part of a new OIG program to facilitate an ongoing dialog on relevant
issues affecting the Postal Service.
Retail Technology Strategy:                                                    DA-AR-09-004
 Automated Postal Centers



We recommend the Vice President, Retail Operations, in coordination with the Vice
President, Engineering:

1. Develop a retail technology plan which includes a pilot deployment of Automated
   Postal Centers to non-Postal Service locations.

Management’s Comments

Management disagreed with our conclusion that APCs have not reduced workhours.
Management also disagreed with our recommendation to develop a plan to deploy
APCs to non-Postal Service locations, stating they have already deployed them to such
locations and/or unattended Postal Service sites. In addition, management stated they
would consider placing APCs in additional non-Postal Service locations if funds become
available for a purchase of additional machines. See Appendix C for management’s
comments in their entirety.

Evaluation of Management’s Comments

While management correctly describes a recent 3-year trend (2005–2007) to support
their statement that window clerk workhours declined at APC sites, they did not use the
appropriate baseline for comparison. Our analysis appropriately compares window
clerk workhours “before and after” APC deployment (see Chart 1). Fiscal year (FY)
2003 served as a baseline for our analysis because it was the period prior to APC
deployment. Using this baseline, our comparison showed an immediate and substantial
increase in window clerk workhours at APC sites after the Postal Service deployed the
machines (FYs 2004 and 2005), and then a gradual decline; however, FY 2008
workhours were still nearly 12 percent greater than those used in FY 2003.
Management’s comments do not explain why window clerk workhours increased at APC
sites after deployment while the number of window transactions decreased.

We believe our recommendation to deploy APCs to non-Postal Service locations is
consistent with the Postal Service transformation plan’s goal to place special emphasis
on enhancing online and self-service capabilities to further reach out to customers
where they live, work, and shop. We do not dispute that there are APCs placed in a few
non-Postal Service locations that are capable of meeting targeted revenue goals. For
example, we note that the APC revenue associated with a Las Vegas, Nevada grocery
store was above the average of other APCs within the same locality. The intent of our
recommendation was to emphasize the importance of a tactical plan and timeframes for
capturing the transformation vision relating to self-service technologies on a larger
scale. The current Postal Service strategy2 is silent on positioning APC’s in retail
outlets. As such, we believe the Postal Service should reconsider our recommendation
as it has the potential to help further modernize the customer experience while lowering
Postal Service costs.
2
    The Alternate Access Channels National Strategic Cookbook, January 2009.




                                                         2
Retail Technology Strategy:                                                   DA-AR-09-004
 Automated Postal Centers



The OIG considers management’s comments to the finding and recommendation non-
responsive. However, we recognize Postal Service capital funding limitations, overall
financial constraints, and current technology priorities. While we continue to believe our
recommendation is worthwhile, we will not pursue audit resolution at this time and will
continue to review technology plans, development, and funding priorities.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Miguel Castillo,
Director, Engineering, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Janet L. Webster
    Dennis P. Yenke
    Katherine S. Banks




                                            3
Retail Technology Strategy:                                                                            DA-AR-09-004
 Automated Postal Centers


                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service introduced APCs in 2004 and there are 2,491 in use today. APCs
give customers a convenient alternative to counter services as most are located in post
office lobbies and many provide basic services at any time of day or night, including
weekends and holidays.

APCs can process many of the transactions that retail window personnel normally
handle, freeing retail associates to focus on assisting customers with face-to-face
transactions. For example, APCs can:

     • Weigh and rate letters, flats, and parcels up to 70 pounds.
     • Dispense variable rate postage in any denomination for Express, Priority, and
       First-Class Mail®; International Mail (under 1 lb.); and Parcel Post Mail or any
       selected special services.
     • Provide Postal Service and mailing information, such as mailing options, different
       classes of mail, or special services.
     • Print Express Mail forms and look up ZIP Codes.
     • Provide the option to purchase Delivery Confirmation, Signature Confirmation, or
       Certified Services™; Insurance; or Return Receipt services.
     • Accept debit and credit cards for payment.

The Vice President, Retail Operations, is responsible for providing tools and guidance
that support the strategic direction in improving efficiency, increasing revenue, and
decreasing costs. Specific responsibility for APCs falls under the Retail Service
Network and Access Innovations. The Vice President, Engineering, defines and
develops policies and plans for the lifecycle support of major Postal Service equipment
and systems, including retail automation.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to identify the benefits of deploying APCs to non-Postal Service
retail locations and assess the Postal Service’s plans for deployment to such locations.
To accomplish our objectives we used the recently developed OIG blog3 to gauge
consumer interest in having APCs at retail and non-Postal Service locations. We also
conducted meetings with Engineering and Retail officials to determine the reasons for
not migrating APCs to non-Postal Service locations. In addition, we researched entities
that use self-service technologies to establish benchmarks.



3
 A website that displays in chronological order the postings by one or more individuals and usually has links to
comments on specific postings.




                                                          4
    Retail Technology Strategy:                                                            DA-AR-09-004
     Automated Postal Centers


    We conducted this performance audit from August 2008 through January 2009 in
    accordance with generally accepted government auditing standards and included such
    tests of internal controls as we considered necessary under the circumstances. Those
    standards require that we plan and perform the audit to obtain sufficient, appropriate
    evidence to provide a reasonable basis for our findings and conclusions based on our
    audit objectives. We believe the evidence obtained provides a reasonable basis for our
    findings and conclusions based on our audit objectives. We discussed our observations
    and conclusions with management on December 15, 2008, and included their
    comments where appropriate.

    PRIOR AUDIT COVERAGE

                    Report         Final Report          Monetary
Report Title        Number             Date               Impact               Report Results
Deployment        DR-AR-07-010      June 7, 2007           None      Analysis of FY 2006 actual transaction
Strategy of                                                          data for the best 3,000 Phase II APC
Automated                                                            candidate facilities indicated only about
Postal Centers                                                       50 to 100 of these facilities had
                                                                     sufficient APC-eligible transactions to
                                                                     potentially produce a cost savings.
                                                                     Purchasing 3,000 more APCs could
                                                                     result in a loss.
Revenue           MS-AR-09-003    November 7, 2008       $1.67 mil   Management developed best practices
Generation by                                                        for APCs, but had not implemented
Automated                                                            them consistently in all Postal Service
Postal Centers                                                       districts. Effective implementation of
                                                                     best practices in the lowest performing
                                                                     10 districts would result in
                                                                     approximately $1.67 million in funds put
                                                                     to better use over the next 2 years.




                                                     5
Retail Technology Strategy:                                                                      DA-AR-09-004
 Automated Postal Centers


                              APPENDIX B: DETAILED ANALYSIS

Window Clerk Workhours Increased

The benefits of migrating transactions to APCs include reduced window clerk workhours
at post offices. Currently, 45 percent of all customer visits at the retail counter can be
completed at an APC. However, as of October 2008, APCs were diverting only about
20 percent of eligible transactions from retail counters nationally – less than half of
those possible. Xxx XXX xxxxxxxx xxxxxx xxxxx xxxxxxxx xxxxxxxxxx xx xxxx
xxxxxxxxx xxx xxxxxxx xx xxxxxxxx xxxxx,4 but, while window transactions decreased
from FY 2004 to FY 2008, targeted workhours actually increased (see Chart 1).

Chart 1 – Window Clerk Workhours at APC Sites




4
 xxx xxx xxx xxxxxx xxxx xxxxxxx xxxxxxxx – xxxxxx xxxxxxxxxxx, xxxxxxxxxx xxx xxxxxxxxxx, xxxxx xxxxxxxx xx,
xxxx, xxx xxxxx xxxxxxxxxxxx xxxx xxxxx xxxxxxxxxxxx xxx xxxx xxxxxxxxx xx xxx xxxxxxx xxx xxxxx xxxxxxx xxxx
xxxxxxxxx xx xxxxxxxxx xx x xxxxx xxx xxxxxxx xxxxxxxxx xx xxx xxxxxxx.




                                                       6
Retail Technology Strategy:                                                     DA-AR-09-004
 Automated Postal Centers



Postal Service APC Migration Plans

The APC DAR states that the Postal Service could deploy APCs to retail space and
other more convenient, less costly non-Postal Service sites. Furthermore, the Strategic
Transformation Plan 2006-2010 states that the Postal Service:

    •   Has a goal to double the percentage of retail transactions via alternate access
        channels to 40 percent by 2010.
    •   Places increasing awareness and use of APCs as a high priority.
    •   Will continue to place special emphasis on enhancing self-service capabilities to
        further reach out to customers where they live, work, and shop.
    •   Will pursue strategic alliances where partners can help speed development
        and/or reduce shared costs.

However, the Postal Service does not have a clear plan that includes deploying APCs to
non-Postal Service locations. The benefits of deploying or leasing APCs to more
convenient non-Postal Service locations include the potential to reduce window clerk
workhours, generate additional revenue, and enhance customer convenience. APCs
also complement internet technologies such as Click–N–Ship and, as discussed
previously, OIG blog results indicate that customers desire to have APCs at non-Postal
Service locations. Despite these potential benefits, the Postal Service plans to keep
APCs primarily in post office lobbies. According to APC program officials, management
recently relocated under-performing APCs to more desirable locations; therefore they
believe APC usage will increase. In addition, funding is currently unavailable for
additional APCs.

While we recognize the Postal Service is piloting its retail storefront in Schaumberg,
Illinois, the Postal Service has not fully incorporated self-service technologies such as
APCs into its retail technology plans. The Postal Service may be foregoing
opportunities to realize the full benefits of self-service technologies by not fully
incorporating self-service kiosks into those plans.

Blog Results

Our blog results indicate that some customers would prefer that APCs be located at
convenient non-Postal Service locations. Specifically, 117 of 152 (77 percent) of the
blog respondents were aware of APCs and 120 respondents (80 percent) would be
more inclined to use an APC if it were conveniently located where they shop.




                                             7
Retail Technology Strategy:                                                     DA-AR-09-004
 Automated Postal Centers




Illustration 1 – Blog Results




Excerpts of blog comments highlighting favorable conditions for APCs include:

    •   APCs should be in all offices and any place people gather to buy items.
    •    I think in major malls/shopping centers these APCs should be the norm.
    •   I think these machines are a great service. In fact they should be placed in every
        large apartment complex throughout the country for those who are at work and
        cannot necessarily get to the post office.
    •   Installing APCs in grocery stores would eliminate the need for special trips.
    •   They should be in any fairly safe 24-hour store, Wal-Mart, grocery stores, drug
        stores, shopping malls, and convenience stores.
    •   I think we would be crazy not to put APCs all over the place like ATMs. The
        potential for revenue is there. Someone walking by would say, ‘oh yeah, I need
        some stamps.’ There are probably more people like me who don’t want to stand
        in long lines.
    •   I would use an APC if it was in a convenient place. This would help me avoid
        using leave from work to get to the post office before closing.

Benchmarking

We analyzed five companies that have successfully used or plan to use self-service
kiosks. Generally, our benchmarks indicate that self-service machines decreased costs
and increased convenience for customers as noted below.

    •   United Airlines’ use of self-service kiosks diverted approximately 63 percent of its
        customers from the counter to the machine and significantly reduced the need for
        counter clerks. Specifically, over a 2-year period, management eliminated 25




                                              8
Retail Technology Strategy:                                                    DA-AR-09-004
 Automated Postal Centers


        percent of their vacant positions. Self-service kiosks complement internet
        technologies by enhancing customer service while lowering counter costs.

    •   Air Canada announced in February 2007 that it was realizing significant savings
        through the use of self-service kiosks. The company stated that it costs 16 cents
        to check in a traveler through a kiosk, versus $3 through a staffed counter. Self-
        service kiosks complement internet technologies to enhance customer service
        while lowering counter costs.

    •   Pitney Bowes, Inc. has developed a self-service kiosk which allows Postal
        Service customers to perform a wide range of tasks, permitting retail counter
        employees to focus their attention on those customers who have special or hard-
        to-meet needs more efficiently. Kiosk locations include 50 - 60 corporate and
        college campuses and Postal Service retail outlets in several countries.

    •   France's national postal operator, La Poste, signed a contract in October 2008 to
        lease 50 stand-alone kiosks and they hope to expand the number of kiosks over
        time. Pitney Bowes, Inc. has established leasing agreements with firms wanting
        kiosks to provide convenient mailing options for customers.

    •   Best Buy is providing express consumer convenience by installing a dozen
        freestanding, self-service vending machines through eight specific airports
        across the country.




                                             9
Retail Technology Strategy:                                 DA-AR-09-004
 Automated Postal Centers


                        APPENDIX C: MANAGEMENT’S COMMENTS




                                       10
